September 22, 2009

MEGAN J. BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT: Audit Report – Canton Processing and Distribution Facility Outgoing Mail
         Consolidation (Report Number NO-AR-09-011)

This report presents the results of our audit of the consolidation of the Canton
Processing and Distribution Facility’s (P&DF) outgoing mail operation to the Akron
Processing and Distribution Center (P&DC) (Project Number 09XG029NO000). The
report responds to a Congressional request. Our audit objective was to determine
whether the consolidation of outgoing mail operations was a prudent business decision.
This audit addresses operational risk. See Appendix A for additional information about
this audit.
Canton Processing and Distribution                                                                      NO-AR-09-011
 Facility Outgoing Mail Consolidation


Conclusion

Consolidating the Canton P&DF outgoing mail processing operations1 into the Akron
P&DC was a prudent business decision. Our analysis showed the consolidation
minimally impacted employees, improved service, reduced costs through improved
efficiency, and addressed community concerns. Since our findings support the
consolidation, we are not making any recommendations. Postal Service management
agreed with the findings, but chose not to comment because there were no
recommendations. See Appendix B for our detailed analysis of this topic.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

        E-Signed by Robert Batta
    VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    Donald Marshall III
    Webster G. Tottress II
    George D. Traynor, Jr.
    Bill Harris




1
    The Canton P&DF will transfer approximately 96 million pieces of mail per year to the Akron P&DC.


                                                           2
Canton Processing and Distribution                                                              NO-AR-09-011
 Facility Outgoing Mail Consolidation


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service is facing one of the most difficult challenges in its history.
There has been a continual decline in First-Class Mail® (FCM) volume over the past
decade. This has resulted in a decline in mail volume of more than 9 billion pieces
during 2008. Furthermore, projections for the remainder of fiscal year (FY) 2009
suggest mail will continue to decline by 27 billion mail pieces (13 percent) resulting in a
net loss of $7 billion.

While the Postal Service has reduced expenses by $773 million in the first 5 months of
FY 2009, this reduction was not sufficient to fully offset the decline in mail volume and
rising workers’ compensation and retirement costs. In recent testimony before
Congress,2 the U.S. Government Accountability Office (GAO) recommended that urgent
action was needed to streamline the mail processing and retail networks, as the Postal
Service no longer has sufficient revenue to cover the cost of maintaining its large
network of processing and retail facilities. Furthermore, the GAO stated it was
necessary for the Postal Service to consider whether it was cost-effective to retain
underutilized facilities and to take action to right size its network.

Through Area Mail Processing (AMP) guidelines, the Postal Service streamlines
operations by consolidating mail processing functions. Automated processing of mail
has provided opportunities to take advantage of consolidations, including consolidations
of:

    •   Saturday First-Class originating operations
    •   First-Class originating operations
    •   First-Class incoming operations
    •   Overnight Priority Mail® processing
    •   Originating Priority Mail processing
    •   Originating and destinating Priority Mail processing
    •   Annexes into main facilities
    •   Facilities

This report also responds to a request from Representative John Boccieri of Ohio’s 16th
Congressional District (see Map 1 below) to examine the consolidation of outgoing mail
processing operations from Canton P&DF into Akron P&DC. Concerns included:

    •   Loss of jobs
    •   Quality of mail service
    •   Potential labor agreement violations


2
 GAO-09-475T, Testimony before the Subcommittee on Federal Workforce, Postal Service, and the District of
Columbia, Committee on Oversight and Government Reform, House of Representatives, dated March 25, 2009.


                                                      3
Canton Processing and Distribution                                                                      NO-AR-09-011
 Facility Outgoing Mail Consolidation




                               Map 1: Ohio’s 16th Congressional District




In Septembers 2005, the U.S. Postal Service Office of Inspector General (OIG)
assessed the efficiency of operations performed at the Canton P&DF and examined the
proposed consolidation of outgoing mail processing operations in the Akron P&DC. We
concluded a favorable business case existed for moving outgoing mail processing
operations from the Canton P&DF to the Akron P&DC. Specifically, we concluded
consolidation would reduce labor and distribution costs, increase processing efficiency,
potentially improve delivery service, and reduce workroom floor congestion.

The Postal Service conducted an AMP study in December 2008 to determine if
efficiency could increase by consolidating outgoing3 mail processing operations
currently performed at the Canton P&DF into the Akron P&DC. The study proposed
moving Canton zones 446 and 447 outgoing (originating) mail processing to the Akron
P&DC. The Canton P&DF would continue to process their destinating mail. The
consolidation was scheduled to involve a shift of approximately 307,696 originating
mailpieces, FCM, and Priority Mail. The Canton P&DF is approximately 20 miles from
the Akron P&DC. The Canton P&DC and Akron P&DC are in the Northern Ohio District
in the Eastern Area (see Map 2 below). The Northern Ohio District also has processing
operations in Cleveland, Mansfield, Steubenville, and Youngstown.




3
    Mail originating at the Canton P&DF, either from collections or through Business Mail Acceptance.


                                                            4
Canton Processing and Distribution                                                        NO-AR-09-011
 Facility Outgoing Mail Consolidation




                     Map 2: Districts Within the Postal Service Eastern Area


  Eastern Area
  Customer Service Districts
                                                                                 Central PA
                                                                         169-179,182,184-188,195,196
                                                            Erie
                                                         155,157-168        Philadelphia Metropolitan
               Columbus                  Northern Ohio                         180,181,183,189-194
         430-433,437,438,456,457            439-449



               Cincinnati
     410,434-436,450-455,458,459,470




            Kentuckiana
        400-409,411-418,420-
          427,471,476,477
                                                                       Pittsburgh
                                                                       150-154,156,260
                                                                                      South Jersey
                                                                                     080-084,197-199



                                                                            Appalachian
                                                                       240-243,245-259,261-268




OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to determine whether the consolidation of outgoing mail
operations was a prudent business decision. We reviewed current and historical data
for both the Canton P&DF and the Akron P&DC. We examined data for one quarter
(Quarter 3, FY 2009 — April 1 through June 30, 2009) to assess the effects of the
consolidation. Additionally, we conducted observations at both sites during the week of
August 17, 2009 and interviewed Postal Service officials and employees.

We used computer processed data from the following systems:

    •     Web Enterprise Information System
    •     Enterprise Data Warehouse

We conducted this audit from July through September 2009 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our

                                                  5
    Canton Processing and Distribution                                            NO-AR-09-011
     Facility Outgoing Mail Consolidation


    findings and conclusions based on our audit objective. We discussed our observations
    and conclusions with management officials on August 19, 2009, and included their
    comments where appropriate.

    PRIOR AUDIT COVERAGE

                                          Final
                        Report           Report     Monetary
   Report Title         Number            Date       Impact            Report Results
Efficiency Review      NO-AR-          March 30,   $73,996,558   While the Akron P&DC has
of the Akron,          05-009          2005                      achieved efficiency gains, it
Ohio Processing                                                  could further improve
and Distribution                                                 operational efficiency.
Center                                                           Management agreed with
                                                                 the recommendations
                                                                 including the reduction of
                                                                 235,000 workhours.
Efficiency Review      NO-AR-          September   $63,617,713   While the Canton P&DF
of the Canton,         05-013          22, 2005                  has improved efficiency,
Ohio Processing                                                  further opportunities exist
and Distribution                                                 for improvement. A
Facility                                                         business case exists for
                                                                 moving outgoing mail
                                                                 operations from the Canton
                                                                 P&DF to the Akron P&DC.
                                                                 Management agreed with
                                                                 the recommendations
                                                                 including the reduction of
                                                                 202,000 workhours.
Steubenville –         NO-AR-          March 30,   N/A           We concluded that
Youngstown,            07-003          2007                      consolidating the
Ohio Outgoing                                                    Steubenville Main Post
Mail                                                             Office outgoing mail
Consolidation                                                    processing operations into
                                                                 the Youngstown P&DF
                                                                 achieved the desired
                                                                 results.




                                                   6
Canton Processing and Distribution                                                                    NO-AR-09-011
 Facility Outgoing Mail Consolidation


                                APPENDIX B: DETAILED ANALYSIS

Employee Impacts

Impact on employees due to the consolidation was minimal. The transfer of outgoing
mail processing operations from the Canton P&DF to the Akron P&DC called for4 a
reduction of 38 positions. 5 Management accomplished this by:

    •    eliminating 27 positions by reducing the number of temporary employees,
         combined with retirements and one resignation,

    •    moving five employees to new positions at the Canton P&DF, and

    •    transferring six employees to other local facilities. See Table 1 below.

All of these relocations were voluntary transfers within the Northern Ohio District.
Management followed procedures outlined in the national agreements between the
Postal Service and the impacted unions including notification of unions and employees.

                          Table 1: Canton P&DF Complement Changes

                     Positions        Temporary Retired Resigned                     Reassigned         Transferred
                     Eliminated       Employees                                       In Canton           Within
                                                                                        P&DF             Northern
                                                                                                        Ohio District
Clerks/ Mail
Handlers                  33                19                5            1                4                  4
Supervisors/
Managers                   5                 0                2            0                1                  2
Totals                    38                19                7            1                5                  6

Service

Consolidating the Canton P&DF’s outgoing mail operation into the Akron P&DC
improved customer service to Canton P&DF customers.

External First-Class Measurement

Prior to the consolidation, External First-Class Measurement6 (EXFC) average overnight
scores for Canton and Akron were xxxxx and xxxxx percent, respectively. However, in
the quarter following the consolidation, overnight scores have improved to xxxxx and
xxxxx percent, respectively. Scores for 2- and 3-day service have shown even greater

4
  Reductions based on the AMP study projections approved December 16, 2008.
5
  The process of reassigning two maintenance employees has not been completed.
6
  EXFC is a test an independent contractor performs to measure the time it takes mail to go from mailbox to delivery
customer.


                                                          7
Canton Processing and Distribution                                            NO-AR-09-011
 Facility Outgoing Mail Consolidation


improvement since the consolidation, each moving up at least one percentage point or
more. See Table 2 below for additional information.


        Table 2: Service Scores for the Akron and Canton Performance Areas




Service Area

Delivery service for FCM and Priority Mail improved after the consolidation. This
consolidation resulted in 16 upgrades and no downgrades in FCM and Priority Mail
between three-digit ZIP Code origin and destination pairs.

    •   Canton customers can expect overnight delivery of FCM to Cleveland, when
        previously Cleveland had been a 2-day service area.

    •   Akron customers can mail overnight to Columbus and Zanesville when previously
        this was not available.

These upgrades in service standards result in an average daily increase of 20,381
pieces of FCM and Priority Mail that received 2-day service before the consolidation, but
now receive overnight service. Additionally, we found the Postal Service was meeting
its service standards.

Cost Savings

Through increased productivity gained by moving the outgoing operations,
transportation changes, and the elimination of 38 positions, the Northern Ohio District
will save about $2.3 million annually. This is a combined savings of $2.03 million in
labor costs and $225,000 in transportation costs.

Productivity

The consolidation of originating processing operations into the Akron P&DC has
increased its overall productivity and decreased processing costs. In FY 2008, before
the consolidation, Akron P&DC achieved 58.0 percent of its Breakthrough Productivity
Index (BPI) target productivity goal and processed 1,076 pieces of mail per workhour.

                                            8
Canton Processing and Distribution                                          NO-AR-09-011
 Facility Outgoing Mail Consolidation




However, in Quarter 3, FY 2009, after the consolidation, the Akron P&DC achieved 59.7
percent of its BPI target productivity goal and processed 1,142 mailpieces per workhour.
This improvement in the Akron P&DC’s productivity represented a 6 percent increase in
the number of mailpieces processed per workhour.

Processing mail at the Akron P&DC was also less expensive than processing mail at
the Canton P&DF. Activity Based Costing (ABC) data for FY 2008 shows the Akron
P&DC’s cost to process 1,000 pieces of First Handled Pieces was $59, ranking them
sixth best within their group, as compared to the Canton P&DF’s cost of $62 and
ranking of 26th in their group.

Transportation

Transportation routes and schedules were reviewed and adjusted as part of the transfer
of outgoing mail processing operations from the Canton P&DF to the Akron P&DC.
There were no changes to Postal Vehicle Services schedules; however, management
made adjustments to 12 Highway Contract Routes, including cancelling two of them for
an annual savings of $225,000.

Community Impact

As part of the consolidation process, the Postal Service considered the concerns from
the communities it serves. With the preservation of the Canton postmark and improved
service, feedback from the community has been positive.

Public Meeting

A public meeting to discuss the consolidation was held October 30, 2007, at Canton
McKinley High School. One of the main issues at the meeting was the preservation of
the local Canton postmark. A local Canton postmark is still available at Canton post
offices and the Akron P&DC uses a new postmark containing both the cities of Akron
and Canton. See Illustration 1.




        Illustration 1:
 Mail processed at the Akron
P&DC now receives the Akron-
      Canton postmark.




                                           9
Canton Processing and Distribution                                               NO-AR-09-011
 Facility Outgoing Mail Consolidation




Customer Satisfaction

Results for the most recent Customer Satisfaction Measurement survey7 quarter 3
ending June 30, 2009, indicate that xx percent of Canton customers consider their
service excellent, very good or good. Although this is slightly lower than some of the
pre-consolidation satisfaction scores, it is consistent with the national and district score
results of xx percent. See Table 3 below for additional information. The Northern Ohio
District also reported they have not received a single customer complaint related to the
change in processing.

                          Table 3: Customer Satisfaction Survey Results

                       Customer Satisfaction Measurement Scores
Percentage of Customers Rating Their Residential Service as Excellent, Very Good or Good




7
    CSM is a survey that customers complete on Postal Service performance.


                                                         10
